fi

C@QCKLE

E-Mail Address:
L ega | Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-472
HOLLYFRONTIER CHEYENNE
REFINING, LLC, ET AL.,
Petitioners,
Vu
RENEWABLE FUELS ASSOCIATION, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI] CURIAE
STATES OF WYOMING, LOUISIANA, OHIO, OKLAHOMA, TEXAS, UTAH, AND WEST
VIRGINIA IN SUPPORT OF PETITIONERS in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 4371 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 11th day of November, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

emer | Kerce. Q.Llaco Ondine bh Chl

Comm. Exp. September 5, 2023
Notary Public Affiant 40276

 
